\

Appendix A

30

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT

TODD C. HUGHES, DOC #166098,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)
.)

Opinion filed July 31,2020.
Appeal pursuant to Fla. R. App. P.
9.141(b)(2) from the Circuit Court for
Pinellas County; Chris Helinger, Judge.
Todd C. Hughes, pro se.

PER CURIAM.
Affirmed.

SILBERMAN, VILLANTI, and SLEET, JJ„ Concur.

Case No. 2D20-1088

Appendix B

31

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CRIMINAL DIVISION
STATE OF FLORIDA,

CASE NO.: CRC97-20414CFANO

v.

UCN:

521997CF020414XXXXNO

TODD C. HUGHES,
Person ID: 393881. Defendant. /

DIVISION:

I

ORDER DENYING DEFENDANT’S MOTION TO CORRECT ILLEGAL SENTENCE
THIS CAUSE came before this Court on Defendant’s pro se Motion to Correct Illegal
Sentence, filed on February 10, 2020, pursuant to Florida Rule of Criminal Procedure 3.800(a).
Having considered the motion, record, and applicable law, this Court finds as follows:
Procedural History
On September 8, 2000, Defendant entered a plea of nolo contendre to one count each of
sexual battery (count one), kidnapping (count two), attempted sexual battery (count three), and
aggravated battery (count four); he was sentenced to terms of twenty-five years in prison on counts
one and two and fifteen years in prison on counts three and four, all to be served concurrently.
(See Exhibit A: Judgment and Sentence). Defendant timely filed a direct appeal in appellate case
number 2D00-4374. On April 24,2002, Defendant’s appeal was dismissed by the Second District
Court of Appeal. Hughes v. State. 818 So. 2d 511 (Fla. 2d DCA 2002) (Table).
Analysis
Pursuant to Florida Rule of Criminal Procedure 3.800(a), a court may correct a defendant’s
illegal sentence at any time. Fla. R. Crim. P. 3.800(a). A sentence is illegal if it is one that no judge
could have possibly imposed for the crime charged under the entire body of sentencing law under
any set of factual circumstances. Carter v. State. 786 So. 2d 1173,1178 (Fla. 2001). The burden is
upon the party seeking relief to show why the sentence is illegal. Prieto v. State. 627 So. 2d 20,
21 (Fla. 2d DCA 1993). If correcting the error would yield the same outcome as the original
sentence, then the error is considered harmless. Gibbons v. State. 543 So. 2d 860, 861 (Fla. 2d
DCA 1989).
Defendant’s motion presents one claim of illegal sentence. He alleges that his designation
as a sexual predator is illegal because he was convicted as an aider-abettor. He alleges that the

i

language used in section 775.021 (4)(c) does not apply to him. Specifically, that section states, in
pertinent part, “... upon conviction, an offender shall be designated as a ‘sexual predator ... if
the felony is a capital, life, or first degree felony violation of chapter 794. Fla. Stat. § 775.21 (4)(c)
(1997). He claims that because he was convicted under the principal statute, he was not the
“offender.” He also alleges that section 777.011 modifies the crime so that it is no longer an
enumerated offense within the sexual predator statue.
The Court does not agree with the Defendant’s interpretation of the sexual predator statute.
While the term “offender” is not defined in the relevant statute, it is clear that “offender” means a
person convicted of the enumerated felony as the statute specifically states, ...upon conviction,
an offender shall be designated...” Additionally, the Court does not believe the principal statute
modifies or changes the conviction for sexual battery to the extent that it no longer falls within the
sexual predator statute. The sexual predator statute applies to all capital, life, and first degree felony
violations of chapter 794. See § 775.21(4)(c)l.a.. Butler v. State, 923 So. 2d 566, 567 (Fla. 4th
DCA 2006) (“Before designating an offender as a “sexual predator,’’.the sole determination to be
made by the trial court is whether that person has a requisite criminal conviction. If a person has
been convicted of any qualifying offense, the court must designate the offender as a “sexual
predator,” and he or she is subject to the Act's requirements.”) (internal citations omitted).
Defendant was convicted of a life felony in violation of chapter 794. (Exhibit A). Therefore, the
Court finds his designation as a sexual predator to be legal.
Accordingly, it is
ORDERED AND ADJUDGED that Defendant’s motion is hereby DENIED.
DEFENDANT IS HEREBY NOTIFIED that he has thirty (30) days from the date of
this order in which to file an appeal, should he choose to do so.
DONE AND ORDERED in Chambers at Clearwater, Pinellas County, Florida, this

On day of

pa2,______ , 2020. A true and correct copy of the foregoing has been

furnished to the parties listed below.

Appendix C
i

32

/
...(

J

IN THE CIRCUIT COURT
FOR THE SIXTH JUDICIAL CIRCUIT OF FLORIDA
IN AND FOR PINELLAS COUNTY

vT)

o

m

£

CO

SPRING TERM, 1998

AMENDED FELONY INFORMATION
CRC97-20414CFANO-I

<3 S 32
-o

SC

ar
ro

STATE OF FLORIDA

35

m

o

3
£
3

VS.

TODD CHRISTIEN HUGHES
SPN 00393881
W/M: DOB: 08/16/73
SSN

T.
2.
3.
4.

SEXUAL BATTERY, Life Felony
KIDNAPPING, 1°F (PBL)
ATTEMPTED SEXUAL BATTERY, 2°F
AGGRAVATED BATTERY, 2°F

IN THE NAME AND BY THE AUTHORITY FOR THE STATE OF FLORIDA:

BERNIE McCABE, State Attorney for the Sixth Judicial Circuit of
Florida, in and for Pinellas County, prosecuting for the State of
Florida, in the said County, under oath, Information makes that
TODD CHRISTIEN HUGHES
in the County of Pinellas and State of Florida, on or between the
14th day of November and the 15th day of November, in the year of
our Lord, one thousand nine hundred ninety-seven, in the County and
State aforesaid, did commit a sexual battery upon
by
placing a bottle into or. in union ,?ith the anus of
1,
without the consent of
and in the process thereof did
use actual physical force likelv to cause serious personal injury
to the said
; contito Chapter 794 . 011 (3)/777 . Oil,
Florida Statutes, and against the peaces and dignity of the State of
Florida.
[N3J
COUNT TWO
And the State Attorney aforesaid, under oath as aforesaid, further
information makes that TODD CHRISTIEN HUGHES, in the County of
Pinellas, State of Florida, on or between the 14th day of November
and the 15th day of November, in the year of our Lord, one thousand
nine hundred ninety-seven, in the County and State aforesaid, did,
without authority, forcibly, secretly, or by threat, kidnap,
confine, abduct, or imprison another person, to-wit:
,
against the will of
with
the
intent
to
inflict
bodily
>
i or another person; contrary
harm upon or to terrorize
to Chapter 787.01(1) (a) (3)/777.011, Florida Statutes, and against
the peace and dignity of the State of Florida.
[J3]

C#P /jDU>

l &

J

Appendix D

33

■s1
;__Probation Violator
__ Community Control Violator
_ Retrial
__: Resentencing .
00-291925 SPT-28-2000 9 :13m
PINELLRS CO BK 11094 PB 159 :
STATE OF FLORIDA

nmmimMBniBiMiiB...

-

IN THE CIRCUIT COURT, SIXTH JUDICIAL CIRCUIT,
IN AND FOR PINELLAS COUNTY, FLORIDA
DIVISION: FELONY
CASE NUMBER CRC

91-

, CFANO -vZT

V8

OBTS Number _

Chr&iiayt
Defendant

Z)

<P393t$(

SPN:

UnahaA

SS# S

I

t-

FILED

KEN BURKE, CLERK OF COURT
_ PINELLAS COUNTY FLORIDA
INST# 2008071326 03/17/2008 at 02:29 PM
OFF REC BK: 16184 PG: 133-142
DocTypezJUD

SEP 0 8 2000

Wwrn'm

JUDGMENT
The Defendant,

TadaL CJnr2&-fi<U) f4tx^he&

, being personally before this

court represented by

____, the attorney of record,

and the state represented by

Hebnsd/i // . Jfis

., and having

been tried and found guilty by Jury/by court of the following crime(s)
entered a plea of guilty to the following crime(s)
entered a plea of nolo contendere to the following crime(s)

COUNT

l

a

OFFENSE STATUTE
NUMBER(S)

' CRIME

i*

&2AUXJuL

Life*

DEGREE
OF CRIME

A

777 .61 fi )fe)((jjl 77 *6/J
777, oti

lin.&n

iL

JL

and no cause being shown why the defendant should not be adjudicated guilty, IT IS ORDERED THAT the
Defendant is ADJUDICATED GUILTY of the above crime(s).
and pursuant to s. 943.325, Florida Statutes, having been convicted of attempts or offenses relating to sexual bat­
tery (ch. 794), lewd and lascivious conduct (ch. 800),. murder (s.782.04), aggravated battery (s.784.045), carjack­
ing (s.812.133), or home invasion (s.812.135), or any other offense specified in s. 943.325, the defendant shall be
required to submit blood specimens.

CT CR 82a (Rev. 01/00)

Page

of

EXHIBIT Ac

/CTCRB2/A,b,c,d

5/00

and good cause being shown; IT IS ORDERED THAT ADJUDICATION OF GUILT BE WITH­
HELD as to Count(8) ______________ _____________
-_____________
Sentence Deferred
Until Later Date .
(Check If Applicable)

The Court hereby defers Imposition of sentence until
(Date)

.

The Defendant In Open Court was. advised of the right to appeal from this Judgment by filing notice of. appeal with the
Cterk of Court within thirty days following the date sentence is imposed or probation is ordered pursuant to this
adjudication. The Defendant was also advised of the right to the assistance of counsel in taking said Appeal at the
expense of the State upon showing of indigency.
DONE AND ORDERED in open court in Pinellas County, Florida this

of

JUDGE
FINGERPRINTS OF DEFENDANT
1.

R. Thumb

1

9&]

>x

3.

5.

le

&

o
71

C:

Ifni
*■*

•

m
■

■

•' .T'

6.

L Thumb

8?

9.

L. Ring

10.

Ik

L. Little!:^
■

Fihj

#■

HEby:
/

d (Name and Title)

I HEREBY CERTIFY that the above and foregoing fingerprints on this judgment are the fingerprints of the:
defendant,

~T3dd- Phrix-kon

, and that they were placed

thereon by the defendant in my presence in open court this day.

JUDGE

CT 9? 82b (Rev. 01/00)

Page___ of

co

WD2/D9/CTCR82/a,B,c,d 5/00

V*-

**
» •!
' ^Defendant

'IrriUL CJlfifik

Number CRC nl-a&fM OBTS Number __

SENTENCE
(As to Count

/

■
The defendant, being personalty before this court, accompanied by the defendant's attorney of record,
felrOBi (Sin*!*
. and havina been adjudicated guilty, and the court having given the defendant an^ppoitunity^ be heard and to offer matters in mitigation of sentence, and to show cause why the defendant should .
not be sentenced as provided by law, and no cause being shown,
(Check one ft applicable)
____ and the court having on

deferred imposition of sentence until this date
(data)

__ and the court having previously entered a judgment in this case on
now resentences the defendant .

-----(date)

and the Court having placed the defendant on probation/community control and having subsequently revoked the
defendant’s probation/Community control
It Is the Sentence Of The Court That:

. o

The defendant pay total statutory costs in the amount of $
The defendant pay attorney fees and costs of defense as determined by the Court.
- ■ The defendant pay a fine of $
, pursuant to 775.083, Florida Statutes; plus $
as the 5% surcharge required by 938.04, Florida Statutes.
\/The defendant is committed to the custody of the Department of Corrections.

•---------

toil
, •* & *
•
V

____The defendant is committed to the custody of the Sheriff of Pinellas County, Florida.

'vD?'-,

____The defendant is sentenced as a youthful offender in accordance with 958.04, Florida Statutes.
To Be Imprisoned (check one; unmarked sections are inapplicable):
____For a term of natural life.
v/fot a term

.

of
:__subject to conditions set

, Said SENTENCE SUSPENDED for a period of
forth in this order.

If “split” sentence, complete the appropriate paragraph:
Followed by a period of __________
• on probation/community control under the supervision of the
Department of Corrections according to the terms and conditions of supervision set forth in a separate order
entered.
However, after serving a period of
______ imprisonment in Department of Corrections, the balance
of the sentence shall be suspended and the defendant shall be placed on probattorycommunity control
. under supervision
of
for a period of_____ _____________
, Of ,the. Department
,
Corrections according to the terms and conditions of probation/community control set forth In a separate.
order entered.
1n the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before
the defendant begins service of the supervision terms.
CT CR 82c (Rev. 03/00)

Page

Of

WD2/DS/CTCR82/a.b,C,d 5/16/00

■ :

Defendant
'TadA Chd^/^jl
f •
■ •’

■

■

•

•

>_

(LFAtJ6-T

ase Number CRC <?7“

:

SENTENCE
)

{An to Count

_ The defendant, being personally before this court, accompanied by the defendant’s attorney of record,
£ir*a
________ . and having been adjudicated guilty, and the court having given the defendant arrtpportunity-tp be heard and to offer matters In. mitigation of sentence, and to show cause why. the defendant should
not be sentenced as provided by law, and no cause being shown,
(Cheek one If applicable)
deferred imposition of sentence until this date

____ and the court having on
(dale)

__ ar>d the court having previously entered a judgment in this case on —:
now resentences the defendant
'

(date)

and the Court having placed the defendant on probation/community control and having subsequently revoked the
defendant’s probation/community control

It Is The Sentence Of The Court That:
o

____The defendant pay total statutory coats in the amount of $ —_

•n

The defendant pay attorney fees and costs of defense as determined by the Court.
. pursuant to 775.083, Florida Statutes, plus $
____The defendant pay a fine of $
ag the 5% surcharge required by 938.04, Florida Statutes.

■

RP
Pr •
7CW

25 j
Pp

___ The defendant is committed to the custody of the Sheriff of Pinellas County, Florida.
The defendant is sentenced as a youthful offender In accordance with 958.04, Florida Statutes.
•!
• . .
To Be Imprisoned (check one; unmarked sections am Inapplicable):

3

0)
i

•>

For a term of
____Said SENTENCE SUSPENDED for a period of
forth in this order.

subject to conditions set

-----------

If “spltt’’ sentence, complete the appropriate paragraph:
_____ on probation/community control under the supervision of the
_ Followed by a period of_______
Department of Corrections according to the terms and conditions of supervision set forth In a separate order
entered.
imprisonment in Department of Corrections, the balance
However, after serving a period of
of the sentence shall be suspended and the defendant shall be placed on probation/community control
under supervision of the Department of
for a period of___________
Corrections according to the terms and conditions of probation/community control set forth in . a separate
order entered.
In the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before
toe defendant begins service of the supervision terms.
•j

CT CR 82c (Rev. 03/00)

Page

Of

;

-n i

\S The defendant is committed to the custody of the Department of Corrections.

____ For a term of natural life.

)
:
)
•.

WD2/D9/CTCR82/a,b,C,d S/16/00

• Defendant

"7'ooLdi ChrisJ-ta*

Case Number

SPECIAL PROVISIONS

a

(As to Count

By appropriate notation, the following provisions apply to the sentence imposed: • - .
PINELLRS COUNTY FLfl.
OFT.REC.BK 11064 PG. IBS

Mandatorv/MInlmum Provisions:
Firearm
Drug Trafficking

_— It is further ordered that the 3-year minimum imprisonment provision of 775.087(2),
Florida Statutes, is imposed for the sentence specified In this count
___ It Is further ordered that the
________ mandatory minimum imprison-.
ment provision of 893.135(1), Florida Statutes, is imposed for the sentence
specified in this count

Controlled Substance
Within 1,000 Feet of School

------- If is further ordered that the 3-year minimum imprisonment provision of
893.13(1 )(e)1, Florida Statutes, is imposed for the sentence specified in this count.

Habitual Felony Offender

—_ The defendant is adjudicated a habitual felony offender and is sentenced to an
extended term (n accordance with the provision of 775.084(4)(a), Florida Statutes.
The requisite findings by the court are set forth in a separate order or stated on the
record in open court.

Habitual Violent
Felony Offender

:____ The defendant Is adjudicated a habitual violent felony offender and is sentenced to
an extended, term in accordance with 775.084(4)(b), Florida Statutes. A minimum
. term of
_ year(s) must be served prior to release. The requisite find­
ings of the court are set forth in a separate order or stated on the record in open
court.

Prison Releasee
Offender

—_ It is further ordered that the defendant shall be sentenced as a prison releasee
offender pursuant to 775.082(9), Florida Statutes, and a minimum term of
_________;___ years must be served before release.

Violent Career
Criminal Offender

___ The defendant is adjudicated a violent career criminal and sentenced to an extend­
ed term iri accordance with 775.084(4)(cj, Florida Statutes. A minimum term of .
—years must be served prior to release. The requisite findings by
the Court are set forth in a separate order or stated on the record in open Court.

Law Enforcement
Protection Act

____ It is further ordered that the defendant shall serve a minimum of
before release in accordance with 775.0823, Florida Statutes.

Capital Offense

------

It is further ordered that the defendant shall serve no less than 25 years in accordance with 775.082(1), Florida Statutes.

Continuing
Crifnlnal Enterprise

------

It is further ordered that the 25-year minimum sentence provision of 893.20 Florida
Statutes, is imposed for the sentence specified in this count.

Taking a. Law Enforce­
ment Officer’s Firearm

---- - It is further ordered that the 3-year mandatory minimum imprisonment provision of
775.0875(1), Florida Statutes, is hereby Imposed for the sentence specified in this
court.

years

Other Provisions:
Consecutive/Concurrent
As To Other Counts

It is further ordered that thepentence imposed for this count shall run (check one)
'•
consecutive to is concurrent with the sentence set forth in count
-

CT CR 82cc (Rev. 01/00)'

-.T- -

> 4 •

. Page

nf this r»«fl

V.-'

of

WD2/D9/CTCR82/B,b1c,CC.d

‘ . rv}
'v_J

5/00

•
•^

•• •
Defendant
• t

'ToAJ. CJjrinkmXh.

-X

Case Number CRC*? 7*

BTS Number

SENTENCE
(As to Count

%

he defendant, being personally before this court, accompanied by the defendant’s attorney Of record,
A
______ , and having been adjudicated guilty, and the court having given, the defenpportuniVfo be heard and to offer matters in mitigation of sentence, and to show cause why the defendant shouid
not be sentenced as provided by law, and no cause being shown,
i

•

(Chock one If applicable)
___and the court having on _______ _______ ____________ ____ deferred imposition of sentence until this date
. (date)

and the court having previously entered a judgment in this case on _
now resentences the defendant

■

(date)

and the Court haying placed die defendant on probation/community control and having subsequently revoked the
defendant’s probation/community’control "
It Is The Sentence Of The Court That:J.
, The defendant pay total statutory costs in the amount of $__

o .

___The defendant pay attorney fees and costs of defense as determined by the Court.

sz
nr
r
- B9
n to

■ pin

, pursuant to 775.083, Florida Statutes, plus $ ;
___ The defendant pay a fine of $ _
as the 5% surcharge required by 938.04, Florida Statutes.
t/^The defendant is committed to the custody of the Department of Corrections.

—n
—o
■ oc

DZ

____The defendant is committed to the custody of the Sheriff of Pinellas County, Florida.
: Ol

r
a

. •:

____The defendant is sentenced as a youthful offender in accordance with 958.04, Florida Statutes.

; 0)

.

To Be Imprisoned (check one; unmarked sections are Inapplicable):
■ '

u

For a term of natural life.. .

iX^For a term of

1*5

---------------

• . Said SENTENCE SUSPENDED for a period of "
forth in this order.

:•

__subject to conditions set

If “epltt” sentence, complete the appropriate paragraph:
_ Followed, by a period of______________
■
on probation/community control under the supervision of the .
Department of Corrections according to the terms and conditions of supervision set forth in a separate order .
entered.
However, after serving a period of_________ imprisonment in Department of Corrections, the balance
of the sentence shall be suspended, and the defendant shall be placed on probation/community control
under supervision of the Department of
for a period of _________________
Corrections according to the terms and conditions of probation/community control set forth in a separate
order entered.
In the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before
the defendant begins service of the supervision terms.
CT CR 82c (Rev. 03/00) .

Page

Of

WD2/D9/CTCR82/a,b,C,d 5/16/00

, Defendant

idi^k&L

“TcataC

_ Case Number CRC.

<n-ad4/4t>jtoM

SPECIAL PROVISIONS
(As to Count
By appropriate notation, the following provisions apply to tee sentence imposed:
Mandatorv/Minlmum Provisions:
Firearm
Drug Trafficking

•:

___ it is further ordered teat tee 3-year minimum imprisonment provision of 775.087(2),
Florida Statutes, is imposed for the sentence specified in this count.
It is further ordered teat tee •
mandatory minimum imprison­
ment provision of 893.135(1), Florida Statutes, is imposed for the sentence
specified in this count.

Controlled Substance
Within 1,000 Feet of School

_ It is further ordered that the 3-year minimum imprisonment provision of
693.13(1)(e)1, Florida Statutes, is imposed for tee sentence specified in this count.

Habitual Felony Offender

_ The defendant is adjudicated a habitual felony offender and is sentenced to an ’
extended termin accordance wtththe provision of 775.084(4)(a), Florida Statutes.
The requisite findings by the court are set forth in a separate order or stated bn the o
record in open court.
3n
j 3D.Z
run
j P%jjj#
> u rl

Habitual Violent
Felony Offender

____

The defendant is adjudicated a habitual violent felony offender and is sentenced to
an extended term in accordance with 775.084(4)(b), Florida Statutes. A minimum
term of __________yearns) must be served prior to release. The requisite findings of the court are set forth in a separate order or stated on the record in open
court.

Prison Releasee
Offender

____

It is further ordered that the defendant shall be sentenced as a prison releasee j Xh
offender pursuant to 775.082(9), Florida Statutes, and a minimum term of f-e*
■ . ,•_________ years must be served before release.
\ °r

Violent Career
Criminal Offender

___ The defendant is adjudicated a violent career criminal and sentenced to an extend­
ed term in accordance with 775.084(4)(c), Florida Statutes. A minimum term of
:_________ __ years must be served prior to release. The requisite findings by i
the Court are set forth in a separate order or stated oh the record in open Court.

Law Enforcement
Protection Act

____ It Is further ordered that the defendant shall serve a minimum of
before release in accordance with 775.0823, Florida Statutes.

Capital Offense

____ It is further ordered that the defendant shall serve no iess than 25 years in accor­
dance with 775.082(1), Florida Statutes.

Continuing
Criminal Enterprise

___ it is further ordered that tee 25-year minimum sentence provision of 893.20 Florida
Statutes, is imposed for tee sentence specified in this count.

Taking a Law Enforce­
ment Officer's Firearm

___ _ It is further ordered teat the 3-year mandatory minimum imprisonment provision of
775.0675(1), Florida Statutes, is hereby imposed for the sentence specified in this
court.

^ \ f:

years

Other Provisions;
Consecutive/Concurrent
As To Other Counts

It is further ordered that the^entence imposed for this count shall run (check 0ne)
___ consecutive to X concurrent with the sentence set forth in count
rmei
of this case.

CT CR 82cc (Rev. 01/00)

Page

\•

'jj

Of

WD2/D9/CTCR82/a,b,c,CC,d

S/00

V

% :
Defendant

*7"oakC PJwiiStSprff/.
T-zj^/mS Case Number

CRC

SENTENCE
(As to Count.

4

)

The defendant, being personally before this court, accompanied by the defendant’s attorney of record,
P0/-12A frf/l&A
______ _______ , and having been adjudicated guilty, and the court having given the defen­
dant an opportunity^ be heard and to offer matters in mitigation of sentence, and to show cause why the defendant should
not be sentenced as provided by law, and no cause being shown,
..
,
...
(Checkone If applicable}
deferred imposition of sentence until this date

____ and the court having op
«We)

____ and the court having previously entered a judgment in this case on.
. now resentences the defendant

(data)

____ and the Court having placed the defendant on prdbation/community control and having subsequently revoked the
defendant’s probstion/community control
It Is The Sentence Of The Court That:
____ The defendant pay total statutory costs In die amount of S

■ o-'

•n
-in

_______

XZ.

____ The defendant pay attorney fees and costs of defense as determined by the Court.
_, pursuant to 775.083, Florida Statutes, plus $
___ The defendant pay a fine of $_
as the 5% surcharge required by 938.04, Florida Statutes.
X/'^The defendant is committed to the custody of the Department of Corrections.

■

nm ,
nr :■
• • -r.;;:

52
v;
7\ O) *

-n

:

O'
OC
012
' A -I

■ _ -< ?■:/.

q -n
■ ,5

____The defendant is committed to the custody of the Sheriff of Pinellas County, Florida.
___ _ The defendant is sentenced as a youthful offender in accordance with 958.04, Florida Statutes.
To Be Imprisoned (check one; unmarked sections are inapplicable):
__ _ For a term of natural life.
__ For a term of _

3

;__ Said SENTENCE SUSPENDED for a period of _
forth in this order.

subject to conditions set

If “split” sentence, complete the appropriate paragraph:
• ' on probation/community control under the supervision of the
Followed by a period of_;
Department of Corrections according to the terms and conditions of supervision set forth in a separate order
entered.
imprisonment in Department of Corrections, the balance
__ However, after serving a period of
of the sentence shall be suspended and the defendant shall be placed on probation/community control
■ . under supervision of the Department of
for a period of
Corrections according to the terms and conditions of probation/community control set forth in a separate
order entered.
In the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before
the defendant begins service of the supervision terms.
CT cn 82c (Rev. 03/00)

Page

Of

p.

8 . V. i

WD2/D9/CTCR82/a.b,C,d5/16/00

>• Defendant..

Chris-ltes* ttcgh&S

Case Number CHC

SPECIAL PROVISIONS

4

(As to Count

)

By appropriate notation, the foilowing provisions apply to the sentence imposed: .
.
Mandatorv/MInlmum Provlalnna;
'•

PINELLAS COUNTY FLR.
0FF.REC.6K 11064 PC 166

Rrearm

lt.te further ordered that the 3-year minimum imprisonment provision of 775,087(2),
Florida Statutes, is imposed for the sentence specified in this count.

Drug Trafficking

It is further ordered that the
________,
mandatory minimum imprison­
ment provision.of 893.135(1), Rorida Statutes, is imposed for the sentence
specified in this count

Controlled Substance
__
Within 1,000 Feet of School

It is further ordered that the 3-year minimum imprisonment provision of
893.13(1)(e)1, Florida Statutes, is imposed for the sentence specified in this count.

Habitual Felony Offender

The defendant is adjudicated a habitual felony offender and is sentenced to an
extended term in accordance wifi) the provisibn of 775.084(4)(a), Florida Statutes.
The requisite findings by the court are set forth In a separate order or stated on the
record In open court.

__

Habitual Violent
Fetony Offender

Prison Releasee
Offender

_ The. defendant is adjudicated a habitual violent felony offender and is sentenced, to
an extended term in accordance with 775.084(4)(b), Rorida Statutes. A minimum
term of-----,—:—_ year(s) must be served prior to release. The requisite find­
ings of the court are set forth in a separate order or stated on the record in o^en
court,
.

It is further ordered that, the defendant shall be sentenced as a prison releasee
offender pursuant to 775.082(9), Florida Statutes, and a minimum term of
. ___
years must be served before release.

Violent Career
Criminal Offender .

----- The defendant is adjudicated a violent career criminal and sentenced to an extend­
ed term in accordance with 775.084(4)(c), Florida Statutes. A minimum term of
——:—_ years must be served prior to release. The requisite findings by
the Court are set forth in a separate order or Stated on the record in open Court.

Law Enforcement
Protection Act

—_ It is further ordered that the defendant shall serve a minimum of _____ years
before release in accordance with 775.0823, Florida Statutes.

Capital Offense

----- It is further ordered that the defendant shall serve no less than 25 years in accordance with 775.082(1), Rorida Statutes.

Continuing
Criminal Enterprise

----- It is further ordered that the 25-year minimum sentence provision of 893.20 Florida
Statutes, is imposed for the sentence specified in this count.

Taking a Law Enforce­
ment Officer's Firearm

— It is further ordered that the 3-year mandatory minimum imprisonment provision of
775.0875(1), Florida. Statutes, is hereby imposed for the sentence specified in this .
court. .
■'

Other Provisions:
Consecutive/Concurrent
As To Other Counts

If is further ordered that the^entence imposed for this count shall run (check one)
----- consecutive to
concurrent with, the sentence set . forth in count
{TY1&of this case.

CT CR 82cc.(Rev. 01A»)
% .?

Page.

«

of

WD2/D9/CTCR82/a,b,c,CC,(l 6/00

39onr

'

C#03 ‘ ~'j&zg

!

s|Ml 'Bpuqd ‘Aiunoo SB||0U(d ‘jsibmjbbio 48 ynoo uedo q Q3U3QUO QNV 3NOQ

" ~

~

•------- ------•>& £7

' | '

—

5Y&iff p..........

•

^

y

jeiflJnHjnob 044 'eouejues 8Aoqe 01418u|soduj| uf

AouoBpq 40 Su|mol(8 uo 04048 0144 40 esuedxa 014440
|B0ddB 0144 Sup|B4 ui |08uno3 40 aouBjqssB 0144 04 44BU qjUBpuejop 0144 pus 4Jnoo 8(144 40 Hiop 044 44(M ajsp S(M4 uuo-*4 8A@p
. OG U(W4|M |0odd0 40 09)4ou 6u)||4 Aq 80U84ues SI144 UJ04 |B8ddB 04 4MS(J ©Ml 4° pesjAps sbm pnoo uado u( juapuojop 0141
•ojnjBjs Bpgqj Aq pqjpods qusuinoop 401440 Aub pue 0OU04U08 puo 4U0Lu6pn{ 8(144 40 Adoo b qj|M 401440604
4U0U4ied0p. 0144 Aq po4Bu6|80p A4ii(OB4 0144 46 suqjoanop 40 juawjJBdea 044 04 4UBpu0j0p. 0144 40A||op 04 pdjoeqp pub pojopjo
Aqajoq S| ‘Bpjjqj ‘AjunoQ 8B||0qd 40.4414048 84) ‘suqjpauoQ 40 juewjiBdea 844 04 8| 0OU04U08 OAoqB 044 iu@A0 044 u|
‘Ui(4qA 0144 40 UBqoq uo punj 48011 uopBsuoduuoQ setupo 044 Aq jusuuAad (Buy uodn 04BP 40401 b )B
44noo 0144 Aq paquuojop eq 110148 pub ooo'O 4$ pbboxb iou ||Bqs jqsp 40ns 40 junoure 041 sojnjBjs eppoy
‘(SHOeO'S^e PUB zt'096 4opun 04B48 044 04 6u|am> pub onp 4qop Aub 40 4U0U4ABd 0)|BU4 48HUJ 4UBpu04@p 041
:04ms o) uoynjjjsoy

:(s)uosB8J 6u|AM>||04 044 404 p©J0pjO 4OU q uoynjusoy
pJto i_
■ «HI

5UO -:
0.

I® —
§8
i

---------------:—— :8M0|(04 SB paispjo q uoynjjjsoy

:

peu(uu040p oq 04 4unouiB ub q psispjo q uqjnjysay ~^T

(CO

j o |fl 113.|2. YTWrpj'TfyO

f

ossa 8(44 U| qqsqiddB 40U q uoynjjjsou

jrrd

rjoqj pojapjo 40444114 q 44

o
r----- --"
.

■
:80OU04U08 qjiqods ”
J30AJ08 6u|0q 0OU0JU0S 0AJ4QB AUB “7^“
(BUOipBip)
:6qMqiq 044 qj|M juaunouoo
"04;
BAynpBsuoo.
(quo )peyo) urn ||Bq8 jquo qqj.q pqjpods qunoo
044 404 pasodot) 809U04UO8 1(8 JO UJ404 0)|8OdUJO9 044 4B44 P0J0PJO J044inj q 41
-6u|9UO4U080J 04 4opd 8uo(4O0HOO jo jusujjJBdea 044 q 4unoo q44 uo p0A408
4044 pejspjo 4044404 q 4|
A)8nqA0jd 0UI|4 ||B 4OJ.4IP043
^,
.... X4
\jnQ
pV/1
-0OU04U98
qq 40 uoqsoabui aiojoq pajiioojBSUi ouiy 404 4143040 sb sAsp
-kfLf
40 |B)OJ B p0MO||B aq ||B48 JUBPU0J0P- 044 4044 P040P4O 464pn4 q 41

4JP8JO uoqjd

e

X-QtftifPPIf&Z-Lb

OHO 40quinN 08BQ
&

suoyqAUoo 40440 QL ®V
4uai4n9uoo/0A|)n908uoo

Z1

liPQJO pr
(ponuyuob) :0uo|S]AO4d 40440

gvijkiu wysiJifj w>ZL

juBpuojea
•* »

Appendix E
34

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT,
IN AND FOR PINELLAS COUNTY, FLORIDA

TODD HUGHES,
Defendant,

vs.

Case No: CRC-97-20414-CFANO-I

STATE OF FLORIDA,
Plaintiff.

MOTION FOR CORRECTION OF ILLEGAL SENTENCE.
ERRONEOUS SEXUAL PREDATOR DESIGNATION
FLORIDA RULES OF CRIMINAL PROCEDURE 3.800(aK3f
COMES NOW, the Defendant, Todd Hughes, pro se, and respectfully moves this
Honorable Court for correction of an erroneous sexual predator designation pursuant to the
Florida Rules of Criminal Procedure 3.800(a)(3). In support of the motion, the Defendant states
the following in a question-and-answer format:
1. What are the FACT(S) that entitle you to correction of sentence?
A Fla. R. Crim. P. L800(a) motion to correct an illegal sentence may be used to
challenge a sexual predator designation, but is limited to cases where it is apparent from the face
of the record that the defendant did not meet the criteria for designation as a sexual predator.
The courts takes the view that it doesn't much matter that a sexual predator designation is
not a sentence or a punishment. Under the statutory scheme set forth in section 775.21(5)(a)l,
when the defendant is before the court for sentencing for a current offense, the sentencing court
must make a "written finding" that the person is a sexual predator at the time of sentencing. This
is, therefore, a function of the criminal court as a part of the sentencing procedure. Rule 3.800
expressly applies to any "sentencing error." We think a sentencing error is not only an error in a
"sentence" but also any error that occurs as part of the sentencing process.
Declaratory judgment actions are ill-suited for challenging sexual predator designations
and have proven unworkable. Saintelien v. State. 990 So.2d 494 (Fla. 2008). A defendant cannot

authorize the trial court to impose an illegal sentence, even by virtue of a plea agreement. Lee v.
State. 731 So.2d 71 (Fla. 2nd DCA 1999)
If an erroneous scoresheet calculation is apparent on the face of the record, it is
reviewable under Fla. R. Crim. P. 3.800('a'). Thus, although scoresheet-based sentencing errors
under Fla. R. Crim. P. 3.800(a) need to be capable of resolution by reference to the record, this
refers to the entire written record available in the circuit court, not just to the limited record on
appeal. Atwood v. State. 765 So.2d 242 (Fla. 1st DCA 2000).
In Case #: CRC97-20414CFANO-I. Mr. Hughes is charged with 794.011(3)/777.011.
See Felony Information.
When an information cites a specific statute, the defendant is put on notice that he is
charged with each of the elements of the offense contained in that statute. An information that
references a specific section of the criminal code is sufficient to charge the defendant with
committing the crime contained in that section. Calloway v. State. 37 So.3d 891 (Fla. 1st DCA
2010). (Emphasis Added)
777.011 states that whoever aids, abets, counsels, hires, or otherwise procures such
offense, ... is a principal in the first degree and may be charged, convicted, and punished as
such, whether he or she is or is not actually or constructively present at the commission of such
offense, (emphasis added).
“In order to be guilty as a principal for a crime physically committed by another, one
must intend that the crime be committed, and do some act to assist the other person in actually
committing the crime.” Staten v. State. 519 So.2d 622 (Fla. 1988) also see Arroyo v. State. 705
So.2d 54 (Fla. 4th DCA 1997), indicating that in order to be guilty as a principal or as an aider
and abettor to a crime, the Defendant must intend that the crime take place, and do some act
which did or was intended to incite, cause, encourage, assist, or advise in the commission of the
crime.
2

On the record, Mr. Hughes’ attorney, “Mr. Olney”. On page 5, 6 of Mr. Hughes’
sentencing hearing that took place on September 8th, 2000, and the collaborating testimony of
state attorney, “Mr. Davidson” on page 13 states respectively “the sexual battery in this
particular case was effected by a co-defendant who introduced a bottle into the victim’s anus. At
the time of that occurrence my client was standing at the door, was not at all involved in that
particular count or that particular event or that particular act.” "... There’s no evidence
whatsoever that as to that, to the completed sexual battery, that my client had any active
participation.” State Attorney Mr. Davidson, “what the court needs to be aware of---- and again,
its been pointed out there’s not been a lot of evidence showing Mr. Hughes’ active participation
in the actual bottle sexual battery, that he was in the doorway, that’s what the witnesses will
indicate. 91 << .. .the other Defendants did, in fact blame Mr. Hughes as being an instigator - type in
this situation. I don’t have that - - those transcripts marked out for the court because, quite
frankly, I don’t find credible anything that the other Co-defendants said other than their
admissions to the horrible things they did to the victim.” This is the factual basis relied upon to
convict Mr. Hughes as an aider and abettor. See Allen v. State. 876 So.2d 737, The purpose of
the factual basis requirement is to insure that the facts of the case fit the offense with which the
defendant is charged. The purpose of determining whether a factual basis for a plea exists is to
prevent a defendant from mistakenly entering a plea to the wrong offense. Before accepting a
plea of guilty or no contest, the trial court must receive in the record factual information to
establish the offense to which the defendant has entered his plea.
775.21 Florida Statute (1997) has specific criteria that must be met before a person can be
designated a Sexual Predator. The Sexual Predator “designation is neither a sentence or
punishment” Angell v. State. 712 So.2d 1132 (Fla. 2nd DCA 1998). “The legislative intent of
775.21 is not punitive, and remedial.” Collie v. State. 710 So.2d 1000 (Fla. 2nd DCA 1998).

3

Defendant Mr. Hughes was improperly designated a Sexual Predator. The criteria
set forth in 775.2l(4)(c) specifically excluded Mr. Hughes, and (4)(c)(l)(a) Florida Statute
(1997) did not specifically include Mr. Hughes.

4

1. Mr. Hughes was not an “offender” within the term specifically used in the criteria
of 775.21(4)(c), 5, and 5(a)(1) (1997) that would subject him to qualify for Sexual Predator
designation.
The familiar role of statutory construction expressio unius exclusio alterius requires that
when a law expressly describes a particular situation where something should apply, an inference
must be drawn that what is not included by specific references was intended to be omitted or
excluded. Prewitt Mgmt. Corp. v. Nikolits. 795 So.2d 1001 (Fla. 4th DCA 2001).
Under the expressio unius canon and the interchangeable inclusion unius canon, when a
law expressly describes the particular situation in which something should apply, an inference
must be drawn that what is not included by specific reference was intended to be omitted or
excluded the expressio unius canon is deployed to defeat an argument that a particular item or
matter is included by implication within the scope of a statutory provision. Lewars v. State. 2017
Fla. App. LEXIS 6772; 42 Fla L Weekly D 109842. When a statute enumerates the things upon
which it is to operate, it should be construed as excluding from its operation things of the same
class or category which it does not mention Mingo v. AraHealthServs. inc 638 So.2d 85 (Fla.
2nd DCA 1994) (Citing James v. Dept, of Corrections. 424 So.2d 826 (Fla. 1st DCA 1982) it
follows that a circuit court may not expand indefinitely the list of crimes for which the
termination of parental rights is authorized in the statute by inserting a no-new-law violation task
into the case plan. To approve such a reading of section 39.806 would amount to judicial
legislation that is contrary to the separation of powers that characterizes our system of
government. M.N. v. Depfof Childrens&FamilvServices. 51 So.3d 1224 (Fla. 2nd DCA 2011)
James, supra, the general principle of expressio unius exclusio alterius is a well settled
rule of statutory construction that the legislature is presumed to know the existing law when it
enacts a statute.

5

Put even simpler, “when a statute... lists the area to which it applies, it will be construed
as excluding from its reach any areas not expressly listed” Siegle v. Lee Citv. 198 So.3d 773
(Fla. 2nd DCA 2016).
Since the legislature specifically used words of distinct and clear meaning... the courts
may not invade the province of the legislature and add words which change the plain meaning of
the statute. L.A.P. Appellant v. State. 62 So.3d 693 (Fla. 2nd DCA 2011).
The Court has stated, “one of the most fundamental tenets of statutory construction
requires that we give statutory language its plain ordinary meaning, unless the words are defined
in the Statute or by clear intent of the legislature.” Quoting Green v. State. 604 So.2d 471 (Fla.
1992).
Considering the pertinent areas of 775.21 Florida Statute (1997) as to Mr. Hughes’ case
(3(a) the purpose, and intent of this statute is to designate,” Sex offenders who use physical
violence” as Sexual Predators Balentine’s Law Dictionary defines violence as: physical force
applied. Thus, the legislature determined that, “sex offenders who use physical violence (force)
are sexual predators”. The word who (pronoun) is defined as: which person or persons. The word
use /yiiz/ (transitive verb) is defined as: the act or practice of using or employing something. The
purpose and intention of the legislature is clear and specific in that it is the actual offenders who
use physical force are Sexual Predators.
The Court has stated, “one of the most fundamental tenets of statutory construction
requires that we give statutory language its plain ordinary meaning, unless the words are defined
in the Statute or by clear intent of the legislature.” Quoting Green v. State. 604 So.2d 471 (Fla.
1992).
Sexual Predators are defined in 775.21(4)(c) (1997)
FOR A CURRENT OFFENSE COMMITTED ON OR
AFTER OCTOBER 1, 1996, UPON CONVICTION, AN
OFFENDER SHALL BE DESIGNATED AS A “SEXUAL
PREDATOR” UNDER SUBSECTION (5), AND SUBJECT
6

TO REGISTRATION UNDER SUBSECTION (6) AND
COMMUNITY AND PUBLIC NOTIFICATION UNDER
SUBSECTION (7) IF: l1. THE FELONY MEETS THE
CRITERIA OF FORMER SS. 775.22(2) AND 775.23(2),
SPECIFICALLY, THE FELONY IS: A. A CAPITAL, LIFE,
OR FIRST DEGREE FELONY VIOLATION OF CHAPTER
794 OR S. 847.0135, OR OF A SIMILAR LAW OF
ANOTHER JURISDICTION;

Section (4)(c) states there must be a current offense committed on or after October 1,
1996, and upon conviction an offender2 shall be designated a Sexual Predator if: specifically, the
felony is: A life felony violation of Chapter 794 (emphasis added) meaning, the person to be
designated must be within the date requirement must be charged with the qualifying offense, and
upon the conviction, the offender of the qualifying offense the designation of Sexual Predator is
mandatory. 775.21 (1997) also states in (5) and (5)(a) 1. It is the offender who qualifies for
Sexual Predator designation. Webster’s New World dictionary defines a colon as a mark of
punctuation (:). Used before a long quotation, explanation, example, series, etc.
When words or terms are not defined in the statute it is acceptable to use a dictionary to
define words.” “Undefined words are construed in their plain and ordinary sense.” See State v.
Mitro. 700 So.2d 643 (Fla. 1997). “Courts may refer to a dictionary to ascertain the plain
meaning intended by the term.” See L.B v. State. 700 So.2d 370 (Fla. 1997)
The colons used in the criteria above, therefore, make sections (4)(c) and (4)(c)(l)(a)
inclusionary of each other. Webster’s New World dictionary defines specifically as: Definite;
explicit. U.S. Court of Appeal (5th and 11th Circuit, Gaddis v. United States. 381 F.3d 444 have
determined,” specific” as: with exactness, and precision.

1 In State v. Collev. 744 So.2d 1172 (Fla. 2nd DCA 1999) the Second District Judge Alterbemd opined that, “repealed sections
775.22 and 775.23 define the predicate offenses necessary to classify an offender as a sexual predator for offenses committed on or after October
1, 1993, and before October 1, 1995.” Mr. Hughes points out the crime in question in this motion occurred in 1997 and thus 775.22 and 775.23
does not apply here, but is listed within 775.21 to continue to apply designation upon those crimes that were perpetrated between 1993 and 1995.
I

2 The legislature’s use of the specific term “offender” is a limiting term within the pertinent criteria to Mr.
Hughes’ case.

7

The familiar role of statutory construction expressio unius exclusio alterius requires that
when a law expressly describes a particular situation where something should apply, an inference
must be drawn that what is not included by specific references was intended to be omitted or
excluded. Prewitt Memt. Coro, v. Nikolits. 795 So.2d 1001 (Fla. 4th DCA 2001).
Under the expressio unius canon and the interchangeable inclusion unius canon, when a
law expressly describes the particular situation in which something should apply, an inference
must be drawn that what is not included by specific reference was intended to be omitted or
excluded the expressio unius canon is deployed to defeat an argument that a particular item or
matter is included by implication within the scope of a statutory provision. Lewars v. State. 2017
Fla. App. LEXIS 6772; 42 Fla L Weekly D 109842
Legislative intent is the primary factor in construing a statute, and whenever possible
that intent should be derived from the language of the statute. A statute should be construed in its
entirety and within the context provided by the related statutes within the same act. Words within
a statute should not be given a literal meaning if that meaning conflicts with the plain legislative
intent. Under the doctrine of noscitur a sociis one examines the other words used within a string
of concepts to derive the legislature's overall intent. Cepcot v. Department of Business and
Professional Regulation. Construction Industry Licensing Board. 658 So.2d 1092 (Fla. 2nd DCA
1995).
Within the Statute’s plain language 775.214(c) and (4)(c)(l)(a) the words, “offender”
and, “A” fulfill the legislature’s intent, and purpose of statute 775.21 to designate offenders who
use physical violence in the qualifying crimes to be designated Sexual Predators.
Within Chapter 777 is, 777.011, and 777.03. As the law demonstrates Chapter 777
modifies crimes. “Chapter 777... acts in conjunction with other statutes to create criminal
offenses.” Johnson v. State. 716 So.2d 332 (Fla. 2nd DCA 1998). “As we said in Zopf attempted

8

Sexual Battery is,” a crime under section 794.011(2) as modified 783 So.2d 1151 by the attempt
statute, section 777.04 Florida Statutes. “Wilcox v. State. 783 So.2d 1150 (Fla. 1st DCA 2001).
These modifiers are related in that both sections of this statute regulate aiders and
abettors. See 777.03(l)(a) A charge that a defendant is an accessory after the fact requires an
allegation that the defendant rendered some form of assistance to an offender with the intent that
the offender avoids or escapes detection, arrest, trial, or punishment. C.W. v. State. 861 So.2d
1243 (Fla. 2nd DCA 2003) This law demonstrates the use of the word offender, and states
throughout that the offender is the actual perpetrator the one who physically commits the crime
where aiders are concerned.
In Wright v. State. 810 So.2d 873 (Fla. 2002) the Florida Supreme Court found an
“Offender” was the perpetrator of the crime, and a Defendant/Principal as one who encourages
or incites the crime, but was not one who used a mask as the offenders of the crime had. The
Supreme Court found in the plain statutory language of 775.0845 (1997) Florida Statute that the
language was specific, using the term, “offender” in describing who is eligible. The offender is
the physical perpetrator of the qualifying offense. That Wright, charged with 777.011 aider
abettor was a Defendant/Principal in the case, and not the actual offender, and as such section
775.0845 did not apply to Wright. Also see Squire v. State. 2019 LEXIS 11316 4th DCA
“Vicarious liability based on principal theory will not suffice under 10/20/Life statute”.
794.011(3) is the only crime that could be used to designate Mr. Hughes a Sexual
Predator, and states it is a person who commits Sexual Battery and in that process uses actual
physical force. 775.21 (4)(c) demonstrates it is the offender (the person who commits and uses
actual physical force) that requires a mandatory designation, not the aider. Balentine’s Law
Dictionary defines aider as one who ... encourages another to commit a crime. The modification
of 794.011(3) with 777.011 and the face of the record submitted demonstrates Mr. Hughes (was

9

not one who used physical violence/force), but was convicted of encouraging another to commit
the crime. See Pages 5, 6, and 13 of the sentencing hearing. September 8, 2000.
As stated above subsections .011, and .03 of Chapter 777 is in para materia, and thus the
meaning of offender is clear where aiders are concerned, the doctrine of in pari materia is a
principle of statutory construction that requires that statutes relating to the same subject or object
be construed together to harmonize the statutes and to give effect to the Florida Legislature's
intent. Florida Department of State. Division of Elections, v. Martin. 916 So.2d 763 (Fla. 2005)
One rule of statutory construction is the doctrine of in pari materia. This principle
requires courts to construe statutes that relate to the same subject matter together to harmonize
those statutes and give effect to legislative intent. Similarly, a statute is to be read as a consistent
whole, and a court should accord meaning and harmony to all of its parts, with effect given to
every clause and related provision. Anderson v. State. 87 So.3d 774 (Fla. 2012)
Mr. Hughes was convicted of a modified offense of aiding abetting sexual battery. A
person convicted of the modified offense, in Mr. Hughes’ case is someone who aided a
qualifying offense as a bystander with intent. The legislature knows the law James, and chose the
limiting term “Offender” of a life felony violation of 794 to be the qualifying criteria for
designation and not a more general term. The legislature chose it to be the offender of the
unmodified crime, and thus Mr. Hughes is not the offender contemplated within 775.2l(4)(c),
and is not within the criteria for designation. Courts of Florida are without power to construe an
unambiguous statute in a way which would extend, modify, or limit, its express terms or its
reasonable and obvious implications. To do so would be an abrogation of legislative power. J.R.
v. Palmer. 175 So.3d 710 (Fla. 2015). Statutory language ought not be read in isolation but taken
in context so that its meaning may be illuminated in the light of the statutory scheme of which it
is a part. Bloom v. Bloom. 227 So.3d 165 (Fla. 2nd DCA 2017).

10

The wording of the statutory language within 775.2l(4)(c) Florida Statute (1997) states
the offender shall be designated if specifically the felony is A life felony violation of Chapter
794. The legislature’s use of, “offender”, and “A” is specific as they pertain to the specific
criteria. The word “A” is specific of the offense for which designation is mandatory. Had the
legislation chosen to use the term “Defendant” and “A” or “Offender” and “Any” then this
would have lead to any life conviction of 794 including Defendants with the modified charge of
794.011(3)7777.011 aiding abetting, but because the statutory language is specific to, “offenders”
who “specifically” have “A”, (not any) life violation of 794. It specifically excludes the
Defendant Mr. Hughes, that was not convicted of the unmodified offense of Sexual Battery.
In State v. Marks. 833 So.2d 249 (Fla. 4th DCA 2002), the “any” usage in statutes: The
term, “any, defined” is all inclusive. Under that rule of construction, “any prosecution” would
include prosecutions by means of 777.011 (1997) Florida Statute. In the alternative the usage of,
“A” is specific, and exclusionary of aiders and abettors, unless it is otherwise specifically listed
within the criteria of 775.21 (1997)
As demonstrated above, although a Defendant can be convicted, and punished as though
he had committed the offense Statute 775.21 is not punitive. Webster’s New World Dictionary
defines committed as: to do or perpetrate (a crime). The fact remains, Mr. Hughes did not
commit the act that could improperly be used for designation.
When words or terms are not defined in the statute it is acceptable to use a dictionary to
define words.” “Undefined words are construed in their plain and ordinary sense.” See State v.
Mitro. 700 So.2d 643 (Fla. 1997). “Courts may refer to a dictionary to ascertain the plain
meaning intended by the term.” See L.B v. State. 700 So.2d 370 (Fla. 1997)
The term offender in the context of pertinent statutes listed is specific and limiting. It is
what the legislature chose to put into the plain language of statute 775.21. As to Mr. Hughes case
777.011 in harmony and in para materia with 777.03, and Florida Supreme Court decision in

11

Wright shows the offender is the actual perpetrator of the crime. To find the specific criteria
within 775.21 was by anyone else other than the offender would nullify the legislature’s usage of
the term “offender” and abrogate the power of the legislature. The limiting term offender is
specific of who mandatory Sexual Predator designation applies. Not “any person” that has a
crime committed on or after October 1, 1996 upon conviction of specifically a life felony of 794.
If any person other than the offender is designated this nullifies the legislature’s use of
the term, “offender” in the plain statutory language and is an abrogation of legislative power.
Our courts are to apply statutes as they are written not to add or take away from it making
words or parts of the statute a nullity.
“The court is without power to construe an unambiguous statute in a way which would
extend, modify, or limit its express terms or its reasonable and obvious implications.” State v.
Purdy, 252 So.3d 723 (Fla. 2018) “to do so would be an abrogation of legislative power.” Holly
v. Auld. 450 So.2d 217 (Fla. 1984). “The court is not at liberty to add a statute words that the
legislature itself has not used in drafting that statute and a matter that is not covered by a statute
is to be treated as intentionally not covered.” Gordon v. Fishman. 253 So.3d 1218 (Fla. 2nd DCA
2018). Add LAP and Kaisischk 991 803
Courts cannot judicially alter the wording of statutes. A courts function is to interpret
statutes as they are written and give effect to each word in the statute. State v. Lewars, 259 So.3d
793 (Fla. 2018).
Although the Court is provided authority to make a written finding at the time of
sentencing, it must establish the specific criteria.
The Court failed to establish the statutory criteria it was relying on to make a written
finding Mr. Hughes was a Sexual Predator “if statutory criteria are established.” See Kelly. 795
So.2d 135. The only reference to criteria is on page 26, 27 of the sentencing transcript where, in
addressing Mr. Hughes counsel, Mr. Olney, Judge Shames asks Mr. Olney if he has discussed
12

with Mr. Hughes that, ... “by virtue of the offenses he’s pleading”... “Mr. Hughes will be
designated a Sexual Predator.” The court failed to base designation on statutory criteria departing
the essential requirement of law by not basing on the criteria State v. Woods. 969 So.2d 408
(Fla. 1st DCA 2007) referenced teveres. See Wisniewski. 805 So.2d 901 (Fla. 2nd DCA 2001) /
Judge failed to make specific finding that he meets each of the criteria Washington v. State. 610
So.2d 517 (Fla. 1st DCA 1992) thereby extending, and modifying the statute by designating Mr.
Hughes using “offenses” that were not established, i.e. unspecified “offenses”, and in doing so
has abrogated the power of the legislation. J.R. v. Palmer. 175 So.3d 710 (Fla. 2015).
As demonstrated in this motion, Mr. Hughes is not the “offender” in regards to the
specific criteria in (4)(c), and designation should not apply, as well the court failed to establish
any specific statutory criteria, and failed to base designation on that criteria before making a
written finding Mr. Hughes was a Sexual Predator.
If left to stand the court will have extended and modified the reach of 775.21 (1997) and
abrogated the power of the legislature.
For reasons within this motion Sexual Predator designation for Mr. Hughes is
illegal/unconstitutional, and must be removed.

13

2. Mr. Hughes was charged and convicted of 794.01 1(31/777.011 Florida Statute
(1997) aider abettor. This is a modified crime and this crime was not specifically
enumerated within the continuing criteria requirement of (4)(c)(l)(a). In Case #: CRC9720414CFANO-I. Mr. Hughes is charged with 794.011(3)/777.011. See Felony Information.
When an information cites a specific statute, the defendant is put on notice that he is
charged with each of the elements of the offense contained in that statute. An information that
references a specific section of the criminal code is sufficient to charge the defendant with
committing the crime contained in that section. Calloway v. State. 37 So.3d 891 (Fla. 1st DCA
2010). (Emphasis Added)
777.011 states that whoever aids, abets, counsels, hires, or otherwise procures such
offense, ... is a principal in the first degree and may be charged, convicted, and punished as
such, whether he or she is or is not actually or constructively present at the commission of such
offense, (emphasis added).
“In order to be guilty as a principal for a crime physically committed by another, one
must intend that the crime be committed, and do some act to assist the other person in actually
committing the crime.” Staten v. State. 519 So.2d 622 (Fla. 1988) also see Arrovo v. State. 705
So.2d 54 (Fla. 4th DCA 1997), indicating that in order to be guilty as a principal or as an aider
and abettor to a crime, the Defendant must intend that the crime take place, and do some act
which did or was intended to incite, cause, encourage, assist, or advise in the commission of the
crane.
Where a statute specifically enumerates those persons to be covered it excludes from it
those people not expressly mentioned. When a Statute is drafted in such a manner as to clearly
convey a specific meaning, the only proper function of the court is to effectuate this legislative
intent. Zopf v. Singletary. 686 So.2d 680 (Fla. 1st DCA 1996). If one subject is specifically
named in a contract, or if several subjects of a large class are specifically enumerated, and there
14

are no general words to show that other subjects of that class are included, it may be reasonably
inferred that the subjects not specifically named were intended to be excluded. Espinosa v. State.
688 So.2d 1016 (Fla. 3rd DCA 1997). (emphasis added)
In modification of 794.011(3) with 777.011 (1997) case law states that, “Chapter 111...
acts in conjunction with other statutes to create criminal offenses.” Johnson v. State. 716 So.2d
332 (Fla. 2nd DCA 1998). “As we said in Zopf attempted Sexual Battery is,” a crime under
section 794.011(2) as modified 783 So.2d 1151 by the attempt statute, section 777.04 Florida
Statutes. “Wilcox v. State. 783 So.2d 1150 (Fla. 1st DCA 2001). Chapter 111 modifies the crime,
and the required elements i.e, “physical action requirements” of a Defendant to find that person
guilty of aiding, that may not have physically participated in the qualifying offense, and may
have aided by counseling, hiring, or otherwise procuring such offense. Coupled with the rest of
777.011 (1997) he or she may or may not be actually or constructively present at the commission
of such offense. Which may include a phone call, text message, written mail, voice mail etc.
Establishing criminal responsibility upon actions by the offender 777.011 does not transfer
over to 775.21 for Sexual Predator designation without specific reference, and or enumeration
within 775.21. To do so would render the term “offender” used in (4)(c) meaningless, as it would
then be ambiguous as to who the legislature chose it to pertain to. It would also change the
meaning of the term, “A” in (4)(l)(a) to mean “any” life felony of 794 as a qualifier for Sexual
Predator designation. Thus, nullifying the words, “offender”, and “A”. This would extend the
reach of 775.21 beyond its expressed language.

The plain and specific

statutory language within 775.21 Florida Statute (1997) does not enumerate or include the
777.011 modified offense as a qualifier.
Sexual Predators are defined in 775.21(4)(c) (1997)
FOR A CURRENT OFFENSE COMMITTED ON OR
AFTER OCTOBER 1, 1996, UPON CONVICTION, AN
OFFENDER SHALL BE DESIGNATED AS A “SEXUAL
PREDATOR” UNDER SUBSECTION (5), AND SUBJECT
15

TO REGISTRATION UNDER SUBSECTION (6) AND
COMMUNITY AND PUBLIC NOTIFICATION UNDER
SUBSECTION (7) IF: l3. THE FELONY MEETS THE
CRITERIA OF FORMER SS. 775.22(2) AND 775.23(2),
SPECIFICALLY, THE FELONY IS: A. A CAPITAL, LIFE,
OR FIRST DEGREE FELONY VIOLATION OF CHAPTER
794 OR S. 847.0135, OR OF A SIMILAR LAW OF
ANOTHER JURISDICTION;

Although the Court is provided authority to make a written finding at the time of
sentencing, it must establish the specific criteria.
The Court failed to establish the statutory criteria it was relying on to make a written
finding Mr. Hughes was a Sexual Predator “if statutory criteria are established.” See Kelly. 795
So.2d 135. The only reference to criteria is on page 26, 27 of the sentencing transcript where, in
addressing Mr. Hughes counsel, Mr. Olney, Judge Shames asks Mr. Olney if he has discussed
with Mr. Hughes that, ... “by virtue of the offenses he’s pleading”... “Mr. Hughes will be
designated a Sexual Predator.” The court failed to base designation on statutory criteria departing
the essential requirement of law by not basing on the criteria State v. Woods. 969 So.2d 408
(Fla. 1st DCA 2007) referenced teveres. See Wisniewski. 805 So.2d 901 (Fla. 2nd DCA 2001) /
Judge failed to make specific finding that he meets each of the criteria Washington v. State. 610
So.2d 517 (Fla. 1st DCA 1992) the sentencing court failed to establish through the specific
criteria of 775..21 that Mr. Hughes was within the statutory language, specifically where 777.011
modified crimes are not listed within 775.21 for designation as a Sexual Predator. Thereby
extending, and modifying the statute by designating Mr. Hughes using “offenses” that were not
established, i.e. unspecified “offenses”, and in doing so has abrogated the power of the
legislation. J.R. v. Palmer. 175 So.3d 710 (Fla. 2015).

3 In State v. Colley. 744 So.2d 1172 (Fla. 2nd DCA 1999) the, Second District Judge Alterbemd opined that, “repealed sections
775.22 and 775.23 define the predicate offenses necessary to classify an offender as a sexual predator for offenses committed on or after October
1, 1993, and before October 1, 1995.” Mr. Hughes points out the crime in question in this motion occurred in 1997 and thus 775.22 and 775.23
does not apply here, but is listed within 775.21 to continue to apply designation upon those crimes that were perpetrated between 1993 and 1995.

16

The modified crime of aider abetting Sexual Battery 794.011(3)/777.011 in regards to the
specific criteria in 4(c)(1)(a) is not listed and law within this motion states it is to be excluded.
As well the court failed to establish any specific statutory criteria, and failed to base designation
on that criteria before making a written finding Mr. Hughes was a Sexual Predator.
If left to stand the court will have extended and modified the reach of 775.21 (1997) and
abrogated the power of the legislature.
For reasons within this motion Sexual Predator designation for Mr. Hughes is
illegal/unconstitutional, and must be removed.
Mr. Hughes does not fall within the terms of Florida Statute 775.21 (1997). It is not
enough that he was convicted of aiding abetting sexual battery. Nor is it enough that the crime
bears some relationship to sexual battery or Sexual Predator designation “by virtue of the
offenses” according to Judge Shames during the plea hearing on September 8th, 2000. In order to
designate Mr. Hughes a sexual predator, the conviction must be of the offender, and must be a
specified offense within terms of the specific statutory language. 775.21 (1997) fails to do so in
regards as to Mr. Hughes’s case.
An example of statutes that specifically pertain to 777.011 aiders abettors can be found in
Florida Statutes 112.3173 (2)(e)l. Within the case of Warshaw v. City of Miami Firefighters’.
885 So.2d 892 (Fla. 3rd DCA 2004) as in this case, “to the extent that there is any doubt about
whether Defendant’s crime is a statutorily, “specified offense” that doubt must be resolved in
favor of the Defendant.
(Rule of Lenity) With respect to criminal statutes, one of the most fundamental principles
of Florida law is that penal statutes must be strictly construed according to their letter. In fact, the
Florida Legislature has specifically codified this principle of lenity in § 775.021(1), Fla. Stat.
(2002). This principle ultimately rests on the due process requirement that criminal statutes must
say with some precision exactly what is prohibited. Thus, when criminal statutes are subject to

17

competing, albeit reasonable, interpretations, they must be strictly construed most favorably to
the accused. § 775.021(1), Fla. Stat. (2002). Polite v. State. 973 So.2d 1107 (Fla. 2003).
Rule of Lenity “In Florida, the rule is not just an interpretive tool but a statutory
directive. See 775.021(1) Kasischke v. State. 991 So.2d 803 (Fla. 2008).
“We reject [buyer’s] argument that the rule of lenity can be applied only in a criminal
case. The text of a statute that establishes basis for both civil liability and criminal liability
cannot have one meaning in civil cases and another meaning in criminal cases. As the U.S.
Supreme Court has recognized, such statutes must be interpreted, “consistently whether we
encounter their application in a criminal or non criminal context. Leocal v. Ashcroft. 543 U.S. 1,
160 L Ed 2d 271, 125 S Ct 377 (Fla. 2004). NorthCarillon. LLC v. CRC 603. LLC. et. al.. 135
So.3d 274 (Fla. 2014).

18

CONCLUSION
The legislation has expressly described, “sex offenders who use physical violence” .. * *5
as criminal conduct where sexual predator designation should apply.’ The criterion where Mr.
Hughes is concerned is located in 775.2l(4)(c) (1997) coupled with the continuation of the
criterion by a colon (:) in Section (4)(c)(l(a). Demonstrates it is, “offenders” with “A” life
violation of 794 that designation should apply. Mr. Hughes was convicted of 794.011(3)7777.011
aider abettor (aiding a sexual battery with force, without physical participation.). In this charge
Mr. Hughes is not an “offender” that used physical force (violence). Mr. Hughes, a Defendant,
was not included within the pertinent legislative intent, nor by specific reference in the criterion
of (4)(c), and (4)(c)(l)(a) of 775.21, and is intended to be excluded.
Mr. Hughes was charged and convicted of Florida Statute 794.011/777.011. Section 777
Florida Statute are modifiers. As the record indicates Mr. Hughes aided abetted as a bystander.
(Did not physically participate in the offense) the elements of which is necessary to convict an
aider abettor differs from actual perpetration, and as such when Florida Statute 775.21
enumerates offenses it is to operate in this case a life felony of 794 (not any life felony of 794)
emphasis added, even though the crime may be of the same class or category the statute does not
indicate 777.011 aider abettor, and law cited within this motion demonstrates Mr. Hughes must
be excluded from its operation for these two reasons supra, Sexual Predator designation must be
removed.
Lastly, the court failed to establish the statutory criteria it is relying on to make a written
finding that Mr. Hughes was a Sexual Predator. The court failed to base the designation on any
specific statutory criteria, thus departing the essential requirement of law in not basing on the
criteria. Mr. Hughes does not fall under the specific criteria for the reasons expressed in this
motion because to find Mr. Hughes a Sexual Predator extends and modifies the statute specific
criteria in designating 775.21 (1997).

19

2. Where in the court’s record is it demonstrated that you are entitled to the correction of
erroneous sexual predator designation? In the Felony Information of CRC97-20414CFANO-I,
and the sentencing transcripts of September 8th, 2000 and all related trial transcripts within co­
defendants cases.
3. Is this the first motion you have filed requesting this correction of sentence or removal
of an erroneous sexual predator designation? No.
If you answered NO, how many prior motions have you filed? What was the claim in
each motion? One. The claim was that Mr. Hughes should have been designated under the 2000
version of 775.21 and that designation was illegal.
As to EACH motion, what was the result? Per Curiam, Affirmed. Hushes v. State. 228
So.3d 562 2D16-4614. Lower court was proper in that 775.21 (1997) applies to Mr. Hughes.
4. What is the correct sentence or designation that you are requesting in this motion?
Removal of designation.
5. Under penalties of peijury and administrative sanctions from the Department of
Corrections, including forfeiture of gain time if this motion is found to be frivolous or made in
bad faith, I certify that I understand the contents of the foregoing motion, that the facts contained
in the motion are true and correct, and that I have a reasonable belief that the motion is timely
filed. I certify that this motion does not duplicate previous motions that have been disposed of by
the court. I further certify that I understand English.

Todd ifughes xJ^#
'
Suwannee Correctional Institution Annex
5964 U.S. Highway 90
Live Oak, Florida 32060

!

20

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing document has been
placed into the hands of an institutional official for the purposes of mailing, via U.S. Mail to, on

this 7— day of flJdAL

, 20l£, to: OFFICE OF THE STATE ATTORNEY, 14250 49™

STREET N, CLEARWATER, FL 33762.

qV\ONai

Respect:

Submitted,

£2

Todd^fughes DC#
Suwannee Correctional Institution Annex
5964 U.S. Highway 90
Live Oak, Florida 32060

21

Appendix F

36

fx

■n
N

c

1

IN THE CIRCUIT COURT FOR PINELLAS COUNTY, FLORIDA
CIRCUIT CRIMINAL NO. 97-20506-CFANO-I

2
3

s

2

4
5

6

STATE OF FLORIDA

s'

■2 3^

fVOLUME III;'C

VS.

L'Vr<»

•i*

vi>

-o
, -i

Yi'rn
50
m
o

rn
■

7

JOHN GREGORY WOODS,

8

Defendant.

sr

rjil

9
10
11
12

PROCEEDINGS:

JURY TRIAL.

BEFORE:

Honorable Philip Federico,
Circuit Judge.

DATE:

August 26, 1998.

PLACE:

Courtrogm I,
Criminal Justice Center,
5100 144th Avenue North,
Clearwater, Florida 34620.

13

©

14
15

r»
n
CD

v

16

co

OJ
CO
©
CO

ci
u
d
s
•0

S
CL

17
18
19

20

UJ

oc

o

Uj

V-.

REPORTED BY:

Robin S. McCormick, RPR,
Court Reporter.

21

s

22

So

23

<_1

2

oCC

24
25

KANABAY COURT REPORTERS
821-3320
ST. PETERSBURG, CLEARWATER
TAMPA - 224-9500

KANABAY COURT REPORTERS

r
258

(

1

A.

Yes.

2

Q.

And what did you see in the room?

3

A.

John and Eric and Dean.

4

Q.

Okay.

5

Could you make out what Dean looked

like now?
I could tell that.

6

A.

He was a little guy.

7

Q.

Okay,

8

A.

But other than that, nothing really.

9

Q.

Okay.

10

A.

Well, they started beating up.on him.

11

Q.

When you say "they", who* are you referring

13

A.

Eric and John.

14

Q.

What is Todd doing?

15

A.

He was standing in the doorway with me.

16

Q.

Is Todd saying anything?

17

A.

No, not that I remember.

d

18

Q. .

And when you say beating on, what did you

5

19

12

C
2
C5

<0
to
eg

o
<o

o
o

<X

0.
CA
UJ

c
o

What did you start to see happen?

to?

actually see take place by John?
A.

20

Well, they had all beat on the guy and hit

* * «

Uj

21

him, but John was the one that had committed the sexual

s

22

acts.

SO

23

<
2
£E

o

24
25

Q.

Okay.

Before we get to that, what kind of

beating did you see take place?
A.

All different kinds.

They punched him.

They

KANABAY COURT REPORTERS

i

•• *•• ••
•
_______ VSj\

25

C

1

kicked him.

They bit him.

2

Q.

Did you see John punch him?

3

A.

Yes.

4

Q.

More than once?

5

A.

I couldn't say how many times.

6

Q.

More than once?

7

A.

I would say so, yes.

8

Q.

Did you see John kick Dean?

9

A.

No, I can't say I seen him kick him.

' 10

Q-

Who did you see kick Dean?

11

A. '

I know that Eric had kicked him.

12

Q.

Did you see John bite Dean?

13

A.

Yes.

14

Q.

More than once?

15

A.

I believe twice.

16

Q.

And where did you see him bite him?

<s

17

A.

In the butt.

oo
d

18

Q.

In the butt?

19

A.

Yes.

20

Q.

Okay.

f
2n
<o
<0
CY

O

•0

&£
0.
CO
UJ
DC
O

i|uid where was Todd when this was going

u

21

£

22

A.

He was in the doorway with me.

23

Q.

At any time did you see Todd direct John to

<

5O

on?

2

S

o

24
25

6

do any of this stuff?
A.

No.

KANABAY COURT REPORTERS

37
--^
[

1

REPORTER'S CERTIFICATE

2

3
4

STATE OF FLORIDA
)
COUNTY OF PINELLAS )

5
6

I, Jennifer Fleischer, RPR,

7

I was authorized to and did stenographically

8

report the foregoing proceedings and that the

9

transcript is a true and complete record of my

10
11

stenographic notes.
DATED this 15th day of September,

12
13
14

<4P&JLJST'lk
rENNIFER FLEISCHER, RPR

15
16
17
18
19
20
21
22
23

Lj

certify that

24
25
KANABAY COURT REPORTERS

2000.

Appendix G

37

ERIK R. MATHENEY
PARTNER
Shutts & Bowen LLP
4301 W. Boy Scout Boulevard
Suite 300
Tampa, Florida 33607
DIRECT (813) 227-8123
FAX
(813) 227-8223
EAAAIL EMatheney®shutts.com

December 21, 2015

Mr. Todd Hughes DC# 166098
Liberty Correctional Institute
11064 NW Dempsey Barron Road
Bristol, FL 32321
Dear Mr. Hughes:
The Attomey/Consumer Assistance Program of the Florida Bar has requested that I
contact you regarding a complaint you filed in October 2015, which concerned an investigation
at the State Attorney’s Office for the Sixth Judicial Circuit back in December 1997. As this
investigation took place over 18 years ago, I do not remember any of the details of the
investigation. As such, I do not have any information about this investigation, nor do I have a
recollection of the facts or any files or material related to this investigation. The notes contained
on Exhibit B contain my handwriting and what I belieye to be Mr. William Loughery’s
handwriting. While I do not remember why I made that notation, I believe my notes are meant to
indicate to Mr. Loughery, who was my division director at the time, that I had initially suggested
that no charges should be filed against you in this matter, but upon consultation with my
supervisor Kendall Davidson, concluded that charges should be filed against you as well as John
Woods and Eric Anderson.
As I mentioned, I do not remember the details of this investigation, so I cannot tell you
for certain how the testimony was memorialized, but in most instances a witness provided
testimony to me in person, which I then summarized via dictation. I do not have a copy of any of
my dictation tapes and am unsure if that material is still within the possession of the State

shutts.com

|

FORT LAUDERDALE

I

MIAMI

I

ORLANDO

I

SARASOTA

|

TALLAHASSEE

I

TAMPA

|

WEST PALM BEACH

Mr. Todd Hughes DC# 166098
December 21,2015
Page 2

Attorney’s Office. I believe this answers your questions and it is my best attempts to recall the
details of this investigation.

Sincerely,
Shutts & Bowen LLP

Erik R. Matheney
ERM:lmw

t

shutts.com

I

FORT LAUDERDALE

|

MIAMI

|

ORLANDO

I

SARASOTA

|

TALLAHASSEE

|

TAMPA

I

WEST PALM BEACH

/

1
Js>.: .

SYNOPSIS
INVEST:

I /s f

12/01

t

DICTATED:

ATT/DIV: E. MATHENEY-I
IPO: Paulette Wanchik

12/05

/

TRANS'D:

12/06/97

WORK TYPE: 99
CASE #: 19720414
JOB #: .1569

DEFENDANTS' NAMES: TODD HUGHES
W/M 8/16/73
JOHN WOODS
W/M 12/15/70
ERIC ANDERSON
W/M 7/12/74
OFFENSE:

SEX BATT, KIDNAPPING, ATT SEX BATT, AGG BATT

ARREST DATE:

11/16/97

WITNESSES APPEARING AND SWORN IN:
Det. Corbet, SPPD
Det. Nave, SPPD
Det. Schmidt, SPPD

t

RECOMMENDATION:
WOODS and ANDERSON file N3
12- by placing a bottle into or in union with the anus of
Also file J2 for them
12- Agg Battery
Also file Attempted N3 for them
12- by placing the penis of (DEFENDANT) into or in union
with the mouth of
File B6
12- his
File same Counts > 2
4 for TODD HUGHES. We want to No Info
the Sex Batt for TODD HUGHES: Given the testimony of the victim,
who cannot say that TODD HUGHES participated in the actual Sexual
Battery and only remembers two people being present. Also^ given
the post Miranda statements of CO-DEFENDANTS WOODS and ANDERSON,
the State does not feel it can successfully prosecute this
DEFENDANT for that charge. However, the State will be proceeding
with Attempted Sexual Battery, Kidnapping and Aggravated Battery
charges against TODD HUGHES.
......... i mu ruimn 111 u nwwiiiiiiii in

P

